audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the
City of Arcade, Georgia, Police Department
GR-40-99-010
May 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the City of Arcade, Georgia, Police Department (grantee).  The grantee received a $59,514 grant to hire one additional sworn officer under the Funding Accelerated for Smaller Towns (FAST) program.  The grantee also received a $179,910 supplement to the FAST grant to hire an additional three officers under the Universal Hiring Program (UHP) program.  The purpose of the grant and supplement for the four additional officers is to enhance community policing efforts.

	In brief, our audit determined the grantee:

Claimed and was reimbursed $25,059 in salaries and fringe benefits above the amounts authorized by the Office of Justice Programs (OJP). 

	Had not developed a good faith plan for retaining the grant funded officer positions after the grant and supplement expire.
	
	Did not submit the Department Initial Report or the 1997 Department Annual Report to COPS.  The grantee also did not submit one financial report to OJP, submitted 10 of the remaining 12 financial reports late, and incorrectly reported the total program outlays and Federal share of outlays on the financial reports.  

These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.  Our scope and methodology appear in Appendix II.